No, 21-194

 

 

In THE
Supreme Court of the United States

CALIFORNIA TRUCKING ASSOCIATION, INC.;
RAVINDER SINGH; AND THOMAS ODOM,

Petitioners,
Vv.

ROBERT BONTA, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL OF THE
STATE OF CALIFORNIA, ef al.,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF THE TRANSPORTATION
INTERMEDIARIES ASSOCIATION, INC. AS
AMICUS CURIAE SUPPORTING PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,008 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 10, 2021.

il

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
